                              , .. '   :. - ;... ,::.
                                                     .r": ';' "_
                                                                 ';' , .!.. ' .   ' " "- '
                                                                                             "d
                                                                                                  ...   ,_
                                                                                                         C. '
                                                                                                                                . . ':.   '.




  IMPLEMENTATION OF THE STATE

 LEGALIZATION IMPACT ASSISTANCE

      GRANTS UNDER THE IMMIGRATION

  REFORM AND CONTROL ACT OF 1986


                     STA TE                 OF                   WASHINGTON




          1\VICt$.




 '0



       lt"cf3a


OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                                                                                                DECEMBER 1989
                        OFFICE OF INSPECTOR GENERAL


The mission of the Offce of Inspetor Genera (OIG) is to promote the effciency, effective­
ness, and integrty of progrs in the United States Deparent of Health and Human Ser­
vices (HS). It does this by developing method to detect and prevent fraud, waste, and
abuse. Create by statute in 1976. the Inspector General keeps both the Secreta and the Con­
gress fully and curently infonned about programs or management problems and recommends
corrtive action. The OIG perform its mission by conductig audits, investigations, and in­
spections with approximately 1, 300 sta strategically located around the countr.


                   OFFICE OF ANALYSIS AND INSPECTIONS


This report is produced by the Offce of Analysis and Inspections (OAI), one of the thee
major offces within the OIG. The other two are the Offce of Audit and the Offce of Inves­
tigations. Inspections ar conducted in  accordace with professional stadads developed by
OAI. These inspections ar tyicaly short-tenn studies designed to determe program effec­
tiveness, effciency, and vulnerabilty to frud or abuse.

Th study was conducted to determne the effectiveness of Washington s implementation of
State Legalzation Impact Assistace Grats funds awared under the Immgration Refonn
and Control Act of 1986.



The report was prepar under the diction ofDon McLaughlin , the Regional Inspector
General of Region VIT, Offce of Analysis and Inspections. Parcipatig in this project were
the following people:

Kansas City                                San Francisco
Hugh Owens, Project Leader                 Apryl Willams
Raymond Balandron
James Wolf
Alicia Smith

Headquarters                               New York
Albert J. Nace                             Lucile M. Cop
Debra Robinson
l ,.





     IMPLEMENTATION OF THE STATE

    LEGALIZATION IMPACT ASSISTANCE

    GRANTS UNDER THE IMMIGRATION

   REFORM AND CONTROL ACT OF 1986

                     STATE      OF   WASHINGTON




                             Richard P. Kusserow
                             INSPECTOR GENERAL




   OAI- 07 -800450                                 DECEMBER 1989
                                 EXECUTIVE SUMMARY


PURPOSE
The purose of this inspection was to determe how effectively Washington implemented the
State Legalization Impact Assistance Grants (SLIAG) program, to identify potential problems
early in the process, and to identiy goo practices which all States could share.

BACKGROUND

The SLIAG program was established under the Immgration Reform and Control Act (IRCA)
of 1986 to reduce the fmancial burden of providig public assistance , public health assis tance,
and educational services to eligible legalized aliens. In Fiscal Year (FY) 1988, $928. 5 milion
in progr funds were allocated to States, and funds wil contiue to be alocated through
FY 1991. These funds also cover admnistrative costs for implementing SLIAG at the State
and local levels. Payments ar made for public assistance activities generaly available to all
needy individuals and public health assistance services offered under the States ' public health
programs. The payments also cover educational services designed to assist eligible legalized
aliens to attain a satisfactory level of performance in school and to achieve English language
proficiency and citizenship skils necessar to become permanent residents. The Famly
Support Admnistration (FSA) is responsible for admnistering the program.

Because SLIAG was a new progr, FSA realzed that problems would surface early in its
implementation. In addition to the normal dificulties encountered in creating new processes
and procedures, FSA recognized that SLIAG would have unique problems. Some of these
issues include the diversity of programs which SLIAG encompasses, cultural and language
barers associated with the service population , maintaning confidentiality of information , and
the extremely short time fraes for the  grt  award process.

METHODOLOGY

In response to the anticipated dificulties with implementing SLIAG, FSA requested that the
Offce of Inspector General (OIG) conduct reviews in 10 States to determne the progress of
States ' implementing this progr. The FSA selected nine States and the Distrct of Columbia
because of the varety of programs they offered, the number of eligible legalized aliens in the
population , or the amount of the grant award. The nine States ar Arzona, California,
Colorado, Florida, Ilinois, Massachusetts, New York , Texas, and Washington.

Interviews based on strctured discussion guides   for each major program ara, as well as
documentation furnished by FSA and State and local offcials, built the base of information for
this report. This report represents the review conducted in the State of Washington and reports
on its implementing the SLIAG progr as of August 1988.
Both FSA and Washington were commtte to identiying problems and developing
innovative and effective solutions for them. Immedately following our on-site visits, FSA
was given an outline of the State concerns identied in this report.


FINDING: Since 1987, FSA has held natonal        conferences   and issued information to
States on implementing the SUAG program.

             The FSA held several national conferences beginning in 1987 to share
             information with States on SLIAG legislation , the implications for States, the
             application process, and the documentation of costs.

             The FSA also provided States with " Question and Answer" issuances and
             demographic data from the Imgration and Natulization Service (IS).

FINDING: Washington took immediate steps to plan for and implement SLIAG.

             Viraly al progrm staf indicated that the task force established by the
             Secretar of the Deparent of Social and Health Services and chaied by the
             single point of contact was instrmental in planning for and implementing
             SLIAG. Ths task force brought all parcipating State components together to
             initiate action to get SLIAG underway.

                                                       fr
             The State has established a bilingual toll- hotline for aliens to lear about
             SLIAG. This has helped the State to identi aras of concern that the alien
             population has about SLIAG.

FINDING: The State has instituted a separate form in the normal enrollment process to
meet program requirements concerning identifying school-age eligible legalized aliens.
This form wil help protect confidentiity.


Neverteless, there are some funds contrl vulnerabilties.


FINDING: The FSA' s definition of public assistance includs      some public   health assis­
tance activites which created administrative and servce delivery problems for Washington
public health agencies.



FINDING: The FSA applicaton reviw process created a number of signifcant problems
for Washington. Also, the FSA' s applicatn reviw process interfered with the State
 ability to plan for serves.
               Delay in FSA issuing the implementing regulation resulted in the State
               inabilty to properly plan for SLIAG.



               Numerous policy misinterpretations and disagreements resulted because FSA
               did not provide definitive wrtten instrctions to assist Washington in
               understanding SLIAG application requirements.

               The time frames were too short for submitting the initial SLIAG application
               review and comment, and revisions of the application.

               No formal appeals process exists if progrms or costs ar   denied in   the fIrst level
               review.

FINDING: Conflicting interpretatons of the term "public charge" has caused uncertain­
tiesfor the alen populatin as to what services they are entitled to receive withoutfear of
deportation.

FINDING: At the time of the OIG review, several programs in the public assistance and
public health assistance areas had not implemented effective methods to idntify eligible
legalized aliens and document the costs for services rendered.

FINDING: The providers which were rendering servces under contract with the Division
of Public Health and the Offce of Superintendent of Public Instrction were not adequate­
ly and consistently obtaining informaton to verify the stas of eligible legalized aliens.


As mentioned earlier, FSA and Washington have aleady initiated action on some of the
recommendations in ths report. Steps have been taen by FSA to provide States with more
specifIc, formal guidelines for identifying and documenting actual progr and admnistrative
costs. However, FSA and Washington need to tae addtional actions in other aras as covered
by the fidings in this report.


RECOMMENDATION: The FSA should reconsider its position to classify certain public
health servces as public assistance and make approprie adjustments to this position.

RECOMMENDATION: The FSA should make its applicaton               and grant award process
more orderly. Specifcally, FSA should

               provide definitive wrtten instrctions on the SLIAG application requirements
               and inform Washington of SLIAG policy, compliance, and reportng issues to
               minimize the confusion that occur in the initial application process;
             ensure that sufficient time is allotted to the application process including
             Washington s initial application , FSA' s review and formal comment,
             Washington s consideration of FSA comments and negotiation of disputes, and
             its submission of the revised application for FSA approval; and

             develop an appeals process to use if programs or costs associated with providing
             services are denied in the initial application process.

RECOMMENDATION: The FSA and the INS should further clarify what is meant by
 public charge " and widely disseminate this information to the alien population who are
concerned about their resident status.

RECOMMENDATION: The State should develop procedures in public assistance and
public health assistance to identify eligible legalized aliens and document the costs for
services rendered.

RECOMMENDATION: The State should ensure that its Division of Public Health and
Office of Superintendent of Public Instrction are working with providers of services to
obtain adequate and consistent documentation to verify the status of eligible legalized aliens.


COMMENTS

The FSA and the State of Washington both commented on the draft report and generally
agreed with our fmdings and recommendations. Both indicated that steps have been taen to
improve implementation of SLIAG. Their comments are included verbatim as Appendices B
and C, respectively.
                                       ..                                                        ........
                                                                                          .... ......  ....................
                                                                                                          .......
                                                                                                      ..... .... ........           ......
                                                                                                                                     ....... ...
                                                                                                                       ................       ................ .... ... .......
                                                                                                                                                           ... .....    ...




                                                             TABLE OF CONTENTS


EXECUTIVE SUMMARY


 NTRODUCTIO N ..... ............ ........... ......... .......                                                                                       II                                   II II.. II 1





            PURPOSE                .......... II"" II II".." II.. II".." II.."" 110............ II".. II".." IIII""".."".. II II.. II II.." II........ II"""""      II ..11..11.. II" II II"" g II II 1

                                                                                                                                                                 1111




            BACKG ROU N D ....."8 liD.... ......11...............11.. II                                                                                            IDII

                                                                                                                                                          ....... ..II                        111111




            METHODO LOG Y ....... ......... ..... 1111..                                                                                      .......... ........ 11..11.. 
          .... .... 2



WASHINGTON' S ORGANIZATIONAL STUCTURE ...................................                                                                                                                            3





FINDINGS AND RECOMMENDATIONS .................................................


            PU B LIC ASSISTANCE..........IIII...11.........."II" ...11 ...8......11...111111..11.. ..1111111111811111111.11111111.011....

                                                                                                                                    II ...




            PUBLIC HEALTH ASSISTANCE ................................................................



            EDUCA TIO N .....11...11....... .... ..0...................... .....................11.1111 ......11.                                                             .......... 1 0



            CROSSCUTTI NG ISSU ES ......................................................................... 12



APPEN DIX A...,.... ...11....... ...... .e.... ...... .....11..11. II .... .... .....,..11....... ..... .... ... .11.. .... ........... .... A­



APPENDIX              B . ...11...11..11...11..11.11...1;.. .11... ....        ............... .11....        .... .1;.. .... .110.. ...11.......           ....11............ B­



APP EN DI XC..... ....... ..... ..............11......................................... ..... ............ ....... ....... C­

                                      INTRODUCTION



PURPOSE
The Famy Support Admistrtion (FSA)           reueste that the Ofce of Inspetor General
(OIG) conduct an inspetion in     nie States and the Distrct of Columbia to determe how
effectively the States   implemente the State Legalzation Impact Assistace Grts (SLIAG)
progr awarde under the Imgration Reform and Control Act (lCA)             of 1986. The
inspetion included   reviewig mehanisms in plac to identi these funds and determnig
whether present or projected policies and proures adere to FSA guidelies. The FSA also
was interested in identig potential problems early in the process and goo pratices which
al States could shar. Ths report presents the results of the inspetion pertng to the State
of Washigton.


BACKGROUND

Under IRCA, eligible legalze alens may apply for permanent residency within a I- year
period afer they are     fit
                        eligible (i.e., by the 31st month after they receive temporar resident
status).

Ths new population wil incrase the demand for State public assistace and public health
assistace servces signcantly. It wi also incras the demad for State educational
servces as these new residents obta English language and civic skills neeed to become
  S. citizens.

To help States defray may of the costs of providing public assistace, public health
assistace, and educational servces to eligible legalize alens, IRCA authorize $1 billon
each year from Fiscal Year     (F 1988 thugh 1991 for SLIAG grts, less an amount
identied as the "Federa offset. " With few exceptions, eligible legalze alens ar ineligible
for fedraly funded public assistace progr such as Aid to Fames with Dependent
Childrn (AFC), foo staps, and Medcaid The "Fedral offset" is the estimated cost to
the Fedral Government of providig these servces or benefits to those few legaliz aliens
who ar eligible for them. In FY 1988, the law alocate $928. mion to States.

To reeive SLIAG funds, States must apply to the FSA Division of State Legalization
Assistace, which is responsible for approving applications and adnistering the program.
The application must be approved in tota for a State to reeive any SLIAG funds. The FSA
also provides States with tehnical assistace on policy issues and on the method used
determne costs and veri actual costs.
The basic reuirment for States to claim reimburement is that costs must be alowable,
reasonable, and alocable. State public assistace and public health assistace program must
be the same ones avaiable to the general public. States canot crate new program in these
areas speifcaly for eligible legalze alens. However, States may create new or adtional
education progrs for eligible legalze alens. States may also clai reimbursement for
progr adstrtive and SLIAG adstrative costs.

Reimburement for public assistace and public health assistace is    lite  only to the amount
of State and local funds expende for SLIAG-relate costs. The maum SLIAG
reimbursement for educational servces is an average of $500 per year per eligible legalze
alien. Determnig progr adnistrtive costs is        ma   in accordce with the fmal
regulation at 45 CP 402. 22.

The FSA is responsible for adnistering the program Because SLIAG was a new program,
FSA  real     that problems would surace early in its implementation. In adtion to the
norm diculties encountered in creatig new processes and proedurs, FSA          recogn
that SLIG would have unique problems. Some of these issues include the diversity of
progrs which SLIAG encompasses, cultual and language baners associated with the
service population mantag confidentiality of inormation , and the extrmely short       tie
fres   for the grant award process.


METHODOLOGY

The FSA selected nie States and the Distrct of Columbia for the inspection beause of the
varety of program offered the number of eligible legalze aliens in the population, or the
amount of the grt. The nie States are Arna, Caorna, Colorado, Florida, llinois,
Masachusetts, New York, Texas, and Washigton. Ths report reviews Washington
implementation of the SLIAG progr as of August 1988.

Pror to conducting the inspetion , the OIG develope   strctu      discussion gudes for each
major program activity at the State and local levels. In conductig this review, intervews
were held with the Washingtn single point of contat, and the progr managers and SLIAG
coordiators at each individual program level. Because public health assistace, public
assistace, and educational servces   ar adistere at the State level , there were no county
SLIAG   adstrtors      to interview. Many of the progrs were not implemented at the        tie
of our review; therefore, we were not able to intervew providers for public assistace or
education.
                WASHINGTON' S ORGANIZATIONAL STRUCTURE



The Deparent of Social and Health Servces is the designate agency responsible for
operating the SLIAG progr for Washigtn. The ditor of the Imgration Assistace
Prgram, with the Division of Income Assistace, has ben appointe the single point of
contat for the SLIAG progr. He wi be assiste by a fiancial maager from within the
Ofce of Accountig Systems.     Both managers have   ben appointed   ful- tie to   adnister
the SLIAG   progr but wi reta their former position titles. Both the Income Assistace
Prgr and the Ofce of Accountig Systems ar in the Deparnt of Social and Health
Servces.

The followig offces in the deparent make up the public assistace function for SLIAG:
Division of Income Assistace, Division of Menta Health, Division of Medcal Assistace,
and the Burau of Alcohol and Substace Abuse.

The Deparent of Community Development, separte frm the Deparent of Social and
Health Servces, provides weatherization , energy assistace, emergency foo and shelter
servces to the State s genera population. These progrs   ar include in the public
assistace porton of the SLIAG progr.

The Division of Public Health and the Burau of Parnt and Chid Health provide public
health assistace servces to the State s genera population. The Burau of Parnt and Child
Health is separte from the Division of Public Health. Neverteless, by SLIAG defmition , its
services are included in the public health porton of the SLIAG progr.

The Ofce of Superitendent of Public Instrction has overal responsibilty for the State
SLIAG education progr. Within that Offce ar the responsibilties for coordiating adult
education and   kidergarn thugh    gr    12 progrs.
                              FINDINGS AND RECOMMENDATIONS



Both FSA and Washigton were commtted to identiying problems and developing
innovative and effective solutions for them. Imediately following our on-site visits, FSA
was given an outlne of the State concerns identied in this report.

FINDING: Since        1987,    FSA has held lUonal conferences and issued information to
States on implementing the SUAG program.

                 The FSA held several national conferences beginning in 1987 to share
                 inormation with States on SLIAG legislation, the implications for States, the
                 application process, and the documentation of costs.

                 The FSA also provided States with "Question and Answer" issuances and
                 demographic data from the Imgration and Natulization Service (IS).


FINDING: Washington took immediate steps to plan for and implement SLIAG.

                 Virally all progrm sta indicated that the task force established by the
                 Secreta of the Deparent of Social and Health Services and chaied by the
                 single point of contact was instrmental in planning for and implementing
                 SLIAG. This task force brought al parcipating State components together to
                 initiate action to get SLIAG underway.

                 The State has established a bilingual toll- free hotlne for aliens to lear about
                 SLIAG. This has helped the State to identify aras of concern that the alien
                 population has about SLIAG.


FINDING: The State has instituted a separate form in the normal enrollment process to
meet program requirements concerning idntifying school-age eligible legalized aliens.
This form will help protect confidentiity.

Neverteless, there are some funds contrl vulnerabilties.        Findings   and recommendations
concerning these vulnerabilties follow under major topic areas.
PUBLIC ASSISTANCE

Assistance or Service Activities

The services provided under public assistace ar:





              Supplemental Securty Income - State supplement payment
              Emergency Assistance (cash)
              Foo Stamp Program
              General Assistance for the Unemployable
              General Assistance for Pregnant Women
              Alcohol and Drug Rehabilitation Program
              supplemental food vouchers for Women , Infants, and Children
              Medical Assistance (non Title XI medical services)
              Weatherization Services
              energy assistance payments
              emergency shelter and emergency foo baskets
              Mental Health Services



The State has not created any new progrs for SLIAG. As a result, the State wil incur
increased administrative costs and wil have to institute new methods to identify eligible
legalized aliens because the program definitions for public assistace and public health
assistace ar unique to SLIAG. For example, within the Women , Infants , and Childrn
progr, FSA defmes the food vouchers as a public assistance service, while it defmes the
intae process, education . and counseling services as public health assistance services. The
program wil have to add mechanisms to identify and separte work activities , thus increasing
administrative costs.

Documentation of Eligible Legalized Alien Status

Programs under public assistance require that the Temporar Resident Card (also known as
the 1- 688 card) be used to verify that a client is an eligible legalzed alien. A copy of the 1- 688

card is maintained in the client s case me. The same intake process for the general public wil
be used to process eligible legalized aliens and special agrcultural workers who apply for
public assistance. Specifc codes wil be assigned for these aliens durg intae for
identication and audit   puroses.

The Division of Income Assistance and the Division of Medical Assistace have issued
instrctions to identify eligible legalized aliens. Program managers are concerned about the
'..   .. ,- ' .'-




                    lack of diection from FSA and INS about what categories constitute being a public charge as
                    defmed by the INS. Because the State has not received clear guidance it is unable to ease the
                    fear of eligible legalzed aliens regarding which services wil jeopardize their resident status.
                    Therefore, the State indicated that eligible legalized aliens are not applying for services they
                    need and for which they are eligible. Most of the cals on the SLIAG hotline ar about the
                    public charge issue.

                    Program Costs

                    For public assistance program, program costs wil be charged to SLIAG based on the actual
                    count of eligible legaliz alens served. The Division of Income Assistace and the Division
                    of Medical Assistace have proedures to captue program costs when an eligible legalized
                    alien applies for assistace. Coded data identifying the eligible legalized aliens are put into
                    the computer system and ar used to determne the progr costs applicable to ths population.

                    Program costs within the Deparent of Community Development and the Bureau of Alcohol
                    and Substace Abuse wi be incurd by contractors of services for the deparent. Progrm
                    costs that ar alowable are specified in the contracts with the providers. A monthy
                    expenditure report detais the expenditus by specifc categories. Policies and procedures are
                    referenced in the contract and an annual audit is conducted to verify the appropriateness of
                    expenditus.

                    Program costs is one ara   where   many respondents said that FSA guidelines were too
                    changeable. The State feels that FSA is holdig the State to arficial defmitions of what
                    servces are to be claimed under public assistace versus public health assistance. The FSA
                    provided guidance June 17, 1988, as to why some public health assistance programs are
                    divided between public health assistace and public assistance.

                    Administrative Costs



                    Durg implementation, al of the time spent by the single point of contact and fmancial
                    manager wil be charged to SLIAG. The cost allocation plans and the indiect cost rates have
                    not been revised for the program. New rates and plans wil be devised when programs are
                    fully implemented. No progr has received notice as to when the single state audit wil be
                    conducted since it is too early for this to occur.

                    To document SLIAG staf costs, the Division of Income Assistace, the Division of Medical
                    Assistace, the Deparment of Community Development, and the Burau of Parnt and Child
                    Health use  tie studies to calculate the amount of time spent by staf on all of the programs.

                    The Division of Mental Health has awarded its contracts forthe year. The division is
                    anticipating having to proess approximately 100 contrct amendments to implement changes
                    for SLIAG. This wil cause additional admistrative costs due to the lateness of SLIAG
                    fundig and the may changes in FSA instrctions. The State may be wiling to forego
claiming SLIAG costs associated with processing eligible legalzed alens alady in the
system and the   progr sta-up costs aleady incurd.
Drawdown of Funds and Cash Balances

The fiscal analyst within the Offce of Accounting Services wil drawdown SLIAG funds for
all the programs. The State s accounting system for SLIAG funds will not change. The
Deparent of Social and Health Services uses a 32-digit account code which capturs each
function within a program. The SLIAG activities wil be given their own account code.

Programs wil claim SLIAG funds by two methods. For example, the Division of Income
Assistace within the Deparent of Social and Health Servces progrs, wil fist submit an
estimate of monthly expenditus to the Offce of Accountig Services. Each program wil
input progr charges thugh the computer system using SLIAG codes. The financial
manager withn the Imgration Assistance Unit wil review the summzed cost data for
each program. Using ths and other inormtion , the fiscal analyst wil submit the amount of
actual expenses to a fiscal management analyst withn the Offce of Accounting Services. The
actual monthly expense data wil be compard to the expenses that were estimated for each
progr area and adjusted. The adjusted figur wil then be drawn into each program
account.

The second billng method is by a monthly invoice for services rendered. This method is used
by outside agencies or contractors providing services to the Deparent of Social and Health
Services, for example, the Deparent of Community Development and the Offce of the
Superintendent of Public Instrction. The invoices are reviewed and approved based on the
contrctual agreement The State also has a budget and accounting system that requires
contrctors to specify expenditues in each category of expenses and each source of income.

Accordig to respondents, cash advances are generally not allowed in public assistance
progrs. However, the Burau of Alcohol and Substance Abuse and the Deparent of
Community Development wi permt advances for sta-up costs. Program receiving cash
advances wil have to submit a plan specifying sta-up activities and their costs. Expenditures
wil be verified and cash balances adjusted though the monthly reportng system and through
an annual contrctor audit Each public assistance program audits its progrs annually.




PUBLIC HEALTH ASSISTANCE

Assistance or Service Activities

The Division of Health and the Bureau of Parnt   and Child   Services provide the following
services under public health assistance:
              immunizations
              AIDS testig, tratment, and education
              tuberculosis - preventive therapy and treatment
              screning, education , and referr for sexually trsmitted diseases, tuberculosis,
              adult dental disease, and diabetes
              Women , Infants, and Children - counseling, assessment, education , and referral
              servces
              Perinata Car Services
              Adolescent Pregnancy Planning Services



These are ongoing services; no new servces have been implemented for SLIAG puroses.

Documentation of Eligible Legalized Alien Status

Public health assistance program may serve individuals who have applied for amesty as well
as those who have achieved temporar or permanent resident status.

The reviewers visited a cliic and a county health deparent. The representatives at the
health deparent were having problems in obtaning documentation to veriy eligible
legaled alen status. Patients often do not have the 1-688 card with them. Because patients
are requested to retu with the 1- 688 card, follow-up has become a problem. Another
problem is language. Many of the eligible legalzed alens speak Spanish and very little
English , and the health deparent does not have a Spanish interpreter.

At the second provider site, the diector leared durng our visit that the health center had
eligible legalized aliens as par of its patient population. The center had stared to implement
procedurs to captu eligible legalized alien statistics and found none of their patients to be
aliens. Later, recognizig that may of their patients speak Spanish and little English , they
hird a Spanish-speakng outrach worker. The outreach worker found eligible legalized
alens that were using the Women , Infants, and Childrn progr.

In the State of Washington , special agrcultu workers with only a temporar work permit
receive services and then leave the area. The provider is left without proof of eligible
legalized alien status on which to substatiate a clai. The single point of contact has told
providers to keep a list of the clients without 1- 688 cards. He hopes to obtan the approval rate
for special agrcultu workers who have applied for temporar resident status within
Washington, and apply that rate to the number of special agrcultur workers served.

The Division of Parnt and Child Health and the Division of Health expressed concern about
veriying eligible legalized alien status. Historically clients have been able to receive services
without declarng their citizenship status. Prgram managers are concerned that requirng
clients to declare their citizenship status, whether they are legal or not, wil   deter people   who
need the health services.

Program Costs

Under SLIAG, fundig for public health assistace is available for  services that ar par of the
State or local public health programs. Washington plans to use a population ratio formula to
calculate specific State and local SLIAG-related costs.

FINDING: The FSA' s definiton o/public assistance includs some public health assis­
tance activities which created administratve and servce delivery problems for Washington
public health agencies.



              As noted above, FSA' s definition of public assistance encompasses some public
              health assistace activities, which created admnistrative and programatic
              dificulties for these agencies.




              As a result of the FSA policy, to obtai   reimburement for service costs, certain
              public health assistace programs wil have to identify individuals as eligible
              legalzed alens. The State staff feel this procedur may cause some individuals
              to forego avaiable servces.


RECOMMENDATION: The FSA should reconsider its position to classif                   certain public
health servces as public assistance and make any appropriate adjustments to this position.


Administrative Costs

The State is retractively identifying program admnistrative costs for progr
implementation. Clerical and data processing support costs accred durg the star-up period
wil be charged diectly to SLIAG.

Cost allocation plans and indict cost rates wil be used for al program once the SLIAG
progr is fully implemented. As with the public assistance progrs, no public health
assistace program has received notice of the date for their single state audit since the
programs ar not fully implemented.



Drawdown of Funds and Cash Balances

The procedurs for the drwdown of SLIAG funds are the same for public health assistance
progrs as for public assistace.
Most of the progrs with the Burau of Parnt        and Child Health   and the Division of Health
deliver servces though contractors. The contrctors submit their invoices to the State
progrs using the second billng method previously described.
Cash advances ar not alowed in either program. Expenditues are verified, and cash
balances ar adjusted thugh the monthly reportg       system   and though ongoing contract
monitoring and review.

Each public health progr, with the exception of the Parent and Child Health Services within
the Burau of Parent and Child Health, is audite annually. The Parent and Child Health
Services program is audited every 2 to 3 year depending on the staf availabilty. In addition
to the audits conducted by each progr, the single point of contact plans to conduct its own
fiscal reviews of the contrctor s billngs.


EDUCATION

Assistance or Serve Activities

The services provided under the kidergaren though grade 12 program are bilingual
education , English as a Second Laguage, and Technical Assistance for Bilnguals. The actual

determned.
number of school distrcts eligible for SLIAG fundig of these services had not been


Education servces provided under the adult education program are English as a Second
Language , civics, literacy, citizenship preparation , adult basic education , child care, and
trsporttion. The SLIAG services for adults wil be provided by community colleges,
vocational technical institutes, community- based organzations, and qualifed designated
entities. Most of the contrctors will be inru      areas. At the time of review the Offce
Superintendent of Public Instrction had not issued the request for parcipation to potential
providers of services for adult education classes pending the receipt of SLIAG funding. Due
to delays in SLIAG funding, the State was unable to provide the needed English as a Second
Language classes in the cities of Wenatchee, Seattle, Yakma, and Tacoma. There is a
two-year waiting list for adult English as a Second Language classes in Seattle.

The State questions what ancilar services, other than child car and   trsportation .   are
covered by SLIAG. The State wants outrach activities covered.

Documentation of Eligible Legalized Alien Status

The SLIAG program regulations will require the State to change its practice of biennually
notifying schools not to ask students about their legal status. They wil now have to obtain
this information from the students. However, to safeguard confidentiality, they wil use a
separate form to document the status of eligible legalzed alens.
Both adult education and kindergaren though grade 12 program plan for their enrollment
procedurs to provide an unduplicated count of eligible legalzed alens. The schools wil
keep a copy of the 1- 688 card (Tempora Resident Car) in the student s fIe for eligible
legalized aliens in kindergaren thugh grade 12      progrs. Adult education had not
developed specifc   procedurs at the tie   of   the review.

Program Costs

For kidergaren thugh grde 12 and adult education programs, the grantee number wil be
assigned a SLIAG charge code to document program expenditues claimed. The contractor
progr costs wil be the number of qualed students times the cost per hour ties the hours
of attendace. The Offce of Superitendent of Public Instrction allows the contrctor to
defme the methodology of monitorig attndace hour.

Administrative Costs



The methodology for accounting admnistrtive costs for SLIAG program wil be the same as
for al other State education progrs. A separte charge code for SLIAG wil be assigned to
the contractor s grantee number for claimig costs. Both adult education and the kidergaren
though grde 12 progrs use       tie  studies to alocate tie and resoures to the proper
fundig source.

The Offce of Superintendent of Public Instrction has dicted its contrctors to claim only
dict admstrtive personnel costs up to a maximum of eight percent of total instrctional
costs. Revision to the indiect charge rate wil occur once the program has been implemented.

The SLIAG funds may not be used to cover State admnistrtive costs for education in excess
of 1. 5 percent of program costs. The actig SLIAG coordiator for the Office of
Superintendent of Public Instrction states that the 1. 5   percent cap wil not cover
admnistrative expenses, once trvel for trning and program        monitorig is added. The State
Refugee Progr, Even Sta, adult basic education, and vocational trning progrs have
covered SLIAG sta-up costs up to now. These costs include salares, equipment, travel
outrach , and supplies. It wil cost the Offce of Superintendent     of Public Instrction too
much to go back and document what has been expended, especialy with the 1. 5 percent cap
on admnistrtive costs. However, he does not plan to request reimbursement for these costs.

Drawdown of Funds and Cash Balances

The Offce of Superintendent of Public Instrction wil follow the second biling method
described under public assistace for the drwdown of SLIAG funds. The accounting system
wil not be changed for SLIAG, although expenditurs related to eligible legalized aliens wil
be assigned a separate allocation code for documenting costs.
The Offce of Superitendent of Public Instrction does not   allow contractors cash advances.
Contractors ar reimbured on a services rendere basis.


CROSSCUTTING ISSUES
FINDING: The FSA applicaton reviw process creatd a number of signifcant problems
for Washington. Also, the FSA' s applicatn reviw process interfered with the State
abilit to plan for   serves.


                                             SLIAG.
             Delay in FSA issuing the implementing regulation resulted in the State
             inabilty to properly plan for



             Numerous policy misinterpretations and disagreements resulted because FSA
             did not provide defmitive wrtten instrctions to assist Washington in
             understandig SLIAG application requirements.

             The time frames were too short for submittng the initial SLIAG application
             review and comment , and revisions of the application.

             No formal appeals process exists if progrms or costs ar   denied in   the fIrst level
             review.



The State s SLIAG application was approved in a trsmittal letter of July 12 , 1988 from the
Deparent of Health and Human Servces. Subsequently, the State received its notice of
grant award on August 16, 1988.

The delay of SLIAG funding, along with the lack of clear instrctions about which services
are covered by SLIAG funding, has delayed providing services to needy eligible legalized
alens. Accordig to severa progr managers in public assistance, public health assistance
and education , if State expenditues for eligible legalized aliens were reimbursed by SLIAG,
the reimbursements could then have been used to provide services to other clients, some of
whom are aleady citizens.

Likewise, the delay of SLIAG fundig and operatig instrctions from FSA has resulted in
higher admistrative costs to SLIAG. The Division of Menta Health, for example, has
alady implemented its contracts for the new fiscal year. Once advised of the SLIAG
program requirments the division wil have to amend over 100 contrcts. In addition,
because of the delay in SLIAG funding, State funds have been used to implement SLIAG and
hir staff in public assistance, public health assistace, and education. Many programs did not
 identiy work dedicated to SLIAG compliance, and these progrs wil now have difficulty
 identiyig the costs attbutable to SLIAG and requesting reimbursement.
RECOMMENDATION: The FSA should make its applicaton               and grant award process

more orderly. Specifally, FSA should


              provide definitive wrtten instrctions on the SLIAG application requirements
              and inform Washigton of SLIAG policy, compliance, and reportng issues to
              mimie the confsion that occured in the initial application process;
             ensur that sufficient tie is alotted to the application process including
             Washington s initial application, FSA' s review and formal comment,
             Washington s consideration ofFSA comments and negotiation of disputes, and
             its submission of the revised application for FSA approval; and

             develop an appeals process to use if programs or costs associated with providing
             servces are denied in the initial application proess.

FINDING: Conflicting interpretatons of the term "public charge " has caused uncertain­
ties for the alien populatn as to what servces they are entitled to receive without fear of
deportaton.


             Eligibilty workers in the public assistace programs and the public health
             assistace programs often cannot answer prospective clients ' questions about the
             effect of receiving assistance on their residency status. As a result, eligible
             legalized aliens are not applying for servces they need and for which they are
             eligible for fear of jeoparzig their citizenship status.



             Program managers are concerned about the lack of guidance from FSA and INS
             about what assistance categories constitute being a public charge as defined by
             the INS. Most of the telephone cals on the State s SLIAG hotline are about the
             public charge issue.

RECOMMENDATION: The FSA and the INS shouldfurther clarify what is meant by
 public charge " and widely disseminate this informaton to the alen population who are
concerned about their resident status.


FINDING: At the time of the OIG review, several programs in the public assistance and
public health assistance areas had not implemented effective methods to identify eligible
legalized aliens and document costs for   servces rendered.

Many public assistance program were waitig to receive their SLIAG funding before
implementing their parcular SLIAG programs. While fundig caused delays, the following
progrms had not yet formulated procedurs to identify eligible legalized aliens and document
client-related costs: Bureau of Alcohol and Substance Abuse, Mental Health Program-
Community and Institutional Services, and Deparment of Community Development.

The Bureau of Parent and Child Health had not implemented the SLIAG progrm pending
receipt of SLIAG funds. Therefore, no systems for identifying eligible legalized aliens or
SLIAG costs have been implemented. The program managers for Women , Infants, and
Childrn know that eligible legalzed alens ar a large par of the service population , even
though procedures have not been set up to formly identify them.

RECOMMENDATION: The State should develop procedures in public assistance and
public health assistance to identify eligible legalized aliens and document the costs for
services rendered.


FINDING: The providers which were rendering services under contract with the Division
of Public Health and the Office of Superintendent of Public Instruction were not
adequately and consistently obtaining information to verify the status of eligible legalized
aliens.

The Division of Public Health uses the designations listed on the 1- 688 card (Tempora
Resident Card) to distinguish between eligible legalized aliens and special agrcultural
workers durng the intae process. Instrctions had been issued to State staf and to health

providers by memorada and manual issuances, as well as conducting on-site trning sessions
with many of the providers. Public health assistance providers were photocopying the
medical examnation form or the I- 688A card (Employment Authorization Card) to document
that the patients were potential eligible legalized aliens.

The Offce of the Superintendent of Public Instrction was, at the time of this inspection
drafting the questions for its adult education grtees to use to identify an eligible legalized
alien. The request for paricipation informs providers that SLIAG funds can be used to meet
the educational needs of eligible legalized aliens. The providers ar instrcted to verify
eligible legalized alien status by copying the 1- 688 card, I- 688A card, or 1- 689 (Fee Receipt).
However, the 1- 688 card is the only card that establishes a student as an eligible legalized
alien.

RECOMMENDATION: The State should ensure that its Division of Public Health and
Office of Superintendent of Public Instruction are working with providers of services to
obtain adequate and consistent documentation to verify the status of eligible legalized aliens.
                          OIG RESPONSE TO COMMENTS


The FSA and the State of Washington both commented on the draf     report.


The FSA

The FSA has generally  agr      with the OIG report findigs and recommendations. The FSA
has taen a number of steps to improve implementation of the SLIAG progr including
claryig program policies and proedures. The FSA has also clared severa subject areas
and the State s organizational strcture descrbed in the drt report.

The FSA questioned the statement that the new population would significantly increase public
assistace and public health assistace services. Early estiates indicated that large numbers
of alens would qualy to access the SLIAG program. The report recognized that information
obtaed durg the review determned that substatial incrases in workloads and
expenditus could occur in these aras as well as in education. However, we understad from
recent discussions with States ' offcials that demand for services is falling behind earlier
projections.

The FSA raised a question about the State s concern that increased adnistrtive costs would
result because definitions of public assistace and public health assistace ar unique to the
SLIAG progr. This State concern is viewed as par of the same issue regarding
classification of some public health assistace activities as public assistance, which is
addressed elsewhere in our response to FSA's comments.


The FSA Refugee Resettlement Progr funds may have been used inappropriately.
Apparently these funds were advanced to cover SLIAG sta-up costs but the State is not
seeking reimbursement from SLIAG. This situation will be referred to the Offce of Audit,
OIG, for furer review.

The FSA questioned the allowabilty of costs for the bilngual hotlne established by the State
for alens to lear more about the SLIAG progr. The FSA stated these costs could not be
considered allowable program costs because the hotlne was not generaly available to the
State s population. A recent contact with a State offcial indicated that the hotlne was
established to respond to alien questions and concerns about al aspects of the SLIAG
progr. The State considers these costs as SLIAG administrtive costs. These claimed costs
as well as al of the State s claimed costs would, of coure, be subject to FSA' s review.



The FSA' s definition of public assistace included some public health activities which created
admnistrative and service delivery problems for Washington s public health agencies. The
OIG recommended that FSA reconsider this position.
The FSA replied that they see this priary as an issue of cost identication and that they wil
work with the States to develop methods of documentig costs which are consistent with
FSA' s responsibilties as stewars of public funds. We believe that FSA' s actions to identify
alternative methods is responsive to our concerns.

We continue to believe that a strct interpretation which permts public health costs to be
claimed only for specific eligible legalzed alens is burdensome to the States and, in many
cases, would require considerable revisions to the States ' system or statutory requirements.
However, we do agre that FSA' s use of alternative systems, such as the Cost Documentation
System and a revised population ratio method system which reflects usage, would be a
positive effort to enhance cost effectiveness without requirg States to develop new systems
or make considerable revisions to present systems. The population ratio method could be
revised to consider not only eligible legalized aliens in the service population , but use of those
services by the eligible legalized alien population based on information aleady obtaned from
progr experience. Where appropriate, other alternatives might be used which would
produce a more efficient system for the States and address congressional intent that the States
would not be required to establish new or elaborate systems.

The FSA questioned the report s statement that Washington had alady received an initial
award letter and appropriations for the fIrst half of 1988 before its FY 1988 application had
been approved. Upon contact with the State, we found that the SLIAG application had been
approved fIrst before funds were given to the State. Modfications have been made in the
report to reflect this information.

We reported that no formal appeals process exists if program costs ar denied in the first level
review. We agree with FSA' s statement that the Grant Appeals Board does have jurisidiction
over matters for withholding and repayment of SLIAG funds. However, itwas the States
concern that an effective appeals mechanism be in place for issues involving programs or
costs at the fIrst level of FSA' s review in the application process.

The FSA made numerous comments to clarfy certain matters        of   fact, policy, or procedure.
We have included these comments verbatim in Appendix B.

The State of Washington

The State has generally agreed with the OIG report findings and recommendations. Their
comments ar included verbatim in Appendix C. The State s comments also clarfied several
processes described in the draft report. We have made some modfications in the report based
on the comments received from the State. Since the time of the on-site review, the State has
taken significant steps to effectively implement the SLIAG progr through procedural and
system changes.
 APPENDIX A



GOOD PRACTICES

A number of practices have been identified that other States could shar.

    VIrually all progr sta indicate that the task force established by the Secretar of the
    Deparent of Social and Health Services and     chai   by the single point of contact was
    instrmental in the planning for and implementing SLIAG. This task force brought all
    parcipatig State components together to initiate action to get SLIAG underway.


    The State has established a bilingual toll- free hotline for aliens to lear about SLIAG.
    Ths has helped the State to identify aras of concern that the alien population has about
    SLIAG.


    The State has instituted a separte form in the normal enrollment process to meet pro­
    gram reuirements concernng identifying school-age eligible legalized aliens. This form
    wi help protect confidentiality.
              APPENDIX B



FAMIL Y SUPPORT ADMINISTRATION'S COMMENTS

::/	
..,.W1Us
                                                      : /..'. ./., '/. .
                                                            .'
                                                            .// "     //   .-    '-   / "     ,..-:_-
                                                                                            ."",




                DEPARTMENT OF HEALTH &. HUMAN SER	                                    FamilfSupport Administration



                                                                                      MemorarRu",
    Date:	       September 22, 1989

    From:        Acting Assistant Secretary
                   for Family Support
    Subject:	    OIG Draf t Report: Implementation of the State Legalization
                 Impact Assistance Grants Under the Immigration Reform and
                 Control Act of 1986 - State of Washington (OAI-07-88-004 SO)
    To:
                 Richard P. Kusserow

                 Inspector General


                 Attached are the Family Support Administration comments on
                 the above report. Many of our coments are technical in
                 nature due to the complexity of the legislation and the
                 fact that the SLIAG program was very new at the time of the

                 review.
                 We appreciate the assistance and cooperation we have

                 received from you 	 in response to our request to conduct this
                 round of rev iews of the SLIAG program.       reports we
                 received are very useful to us in understanding how States
                 are implementing the program.

                                                                                9 .. ?-(-t--L
                                                        --sr..,
                                                     Catherine Bertini


                  At tachmen t
                        OIG DRA REPORT:
   Implementation of the state Legalization Impact Assistance

                               Grants
     Under the Immigration Reform and Control Act of 1986 ­

                       state of Washington

The Family Support Administration I s comments are divided into
three sections: Comments    on background information and other
narrative material that does not relate directly to the draft

                recommendations.
report I s findings, comments on the findings, and responses to the
draft report I s

Narrative:
Page i (Executive Summary) -- The draft report says that SLIAG

funds may be used for " educational services designed to assist

eligible legalized aliens to attain a satisfactory level of

performance in school and to achieve English language proficiency

and citizenship skills necessary to become permanent residents.

The final report should make clear that, by regulation, SLIAG

funds may be used to provide adults any educational service

authorized by the Adult Education Act.


Page 1 (Background) -- The draft report says, "This new
population will increase the demand for state public assistance
and public health assistance services significantly.    The draft
report isn t clear whose conclusion this 7is or upon what data and
analysis the conclusion is based. The final report should
clarify these points.

In the course of implementing SLIAG, we have discovered that

nei ther State and local pub ic health programs nor, wi th few
exceptions, public assistance programs, inquire about legal
status.   This suggests that at least some aliens were using
these services before legalization and that newly legalized
aliens do not represent a " new population" for public assistance
and public health assistance   services. Preliminary cost data
from States suggests that newly legalized aliens are accessing
public assistance services at rates far lower than the general
population.   There are indications that a backlog of public
heal th needs existed and was identified during the medical
examinations required of all applicants for legalizations.
However, there is no data to suggest that, other than this
temporary bulge in demand for public health services, newly
legalized aliens will generate a significant increase in demand
for public health assistance or public assistance services.

Page 2 (Background) -- The draft report says that reimbursement

for public assistance and public health assistance "is limited

only to the amount of State and local funds expended for SLIAG-

related cost.    SLIAG funds may be used to pay any SLIAG-related

cost, which is defined in regulation at 45 CFR 402. 2 as the

expendi ture of funds (whether State, local, or SLIAG) for any
purpose for which SLIAG reimbursement would be allowable. The
final report should make clear that state and local governments

are not required to spend their own funds before drawing down

SLIAG funds.
Page 3 (Washington' s organizational structure) -- The draft
report lists a number of services that the Department of
Community Development, the Department of Public Health, and the
Bureau of Parent and Child Health provide "to eligible legalized
aliens. The final report should make clear that, by law SLIAG
funds for only those public assistance and public health
assistance programs that are generally available, i.e., in which
being an eligible legalized alien does not impact on eligibility.

Page 5 (Pulic Assistance) -- The draft report says, "The state
has not created any new programs for SLIAG.   As noted above,
public assistance programs or activities must be generally
available in order to receive SLIAG funds.  Thus, the creation of
 new programs for SLIAG" was not an option to States. The final
report should clarify this point.

The draft report further says, "As a result, the state will

incur increased administrative costs and will have to institute
new methods to identify eligible legalized aliens because the
program definitions for public assistanc! and public health
assistance are unique to SLIAG.   We do not understand this
sentence.  Program administrative costs, i. e., the cost of
administering an ongoing program, will not change as a result of
SLIAG. SLIAG administrative costs, i. e., costs incurred as a
result of SLIAG, may be paid with SLIAG funds. The final report
should clarify this point.

Page 6 (Pulic Assistance Program Costs) -- The draft report

says, "The FSA had no written explanation as to why some public
health assistance programs are divided between public health
assistance and public assistance. In guidance issued June 17,
1988, we explained in detail the statutory and regulatory
cri teria for the two categories of services and gave detailed
guidance as to what kinds of acti vi ties met the criteria for
each.   The final report should make this point.

Page 6 (Pulic Assistance Administrative Costs) -- The draft
report says processing mental health contract amendments "to
implement changes for SLIAG" will cause " additional
administrative costs due to the lateness of SLIAG funding and the
many changes in FSA instructions.   It is not clear how costs
will increase if there is no increase in staff. Nor is it clear
why contracts would be amended as a result of SLIAG. The final
report should address these questions.

Page 8 (Public Health Assistance Documentation of Eligible

Legalized Alien status) -- The draft report says that " special
agricultural workers with only a temporary work permit" receive

services, but the provider does not know whether they were

granted status. The draft report says the provider "hopes to

obtain the approval rate for special agricultural workers who
have applied for temporary resident status" and apply that rate
to "the number of special agricultural workers served.   The
point of this paragraph is not clear. The cost of public health
assistance services (but not public assistance or educational
services) provided to applicants is allowable, so providers would
need only documentation that an individual had applied for
status.  For public assistance and educational services, we have
made available to states methods for determining by a
statistical adjustment the proportion of applicants who were
granted status. The final report should make these points.
Also on page 8, the draft report says that health providers are
concerned "that requiring clients to declare their citizenship
status, whether they are legal or not, will deter people who need
the health services.           Costs for programs or activities that meet
the statutory and regulatory criteria for public health
assistance can be established by' using a population ratio method.
We have made available to States other methods to establish costs
for public assistance and public health assistance programs that

do not involve checking the status of any program participant.

Among these is the Cost Documentation System, developed by FSA

with the cooperation of the Social Security Administration, the

Immigration and Naturalization Service, apd the General Services

Administration, which allows 
        osts to be established by matching
the social security numers of program participants with the
social security numbers of newly legalized aliens. - The final
report should make these points.

Page 9 (Public Health Assistance Administrative Costs) -- The
paragraphs under this heading appear to refer to SLIAG
administrative costs rather than program administrativ costs.
The distinction is important because SLIAG administrative costs
may be charged in full to the State' s grant, while only a pro
rata share of program administrative costs may be charged to the
grant.  The final report should make clear which kind of
administrative cost is being addressed.

Page 19 (Education Assistance or Service Activities) -- The

draft report says no new services have been added. But the

previous paragraph, apparently quoting State officials, says

that full services were not provided pending the flow of SLIAG

funds. The final report should make clear whether the State
planned to fund services directed specifically to' eligible
legalized aliens. Additionally, the draft report says, "The

State questions what ancillary services, other than child care
and transportation, are covered by SLIAG. The State wants
outreach activities covered.   The regulation and written

guidance from FSA make clear that SLIAG funds may be used for any

activity authorized by the Adult Education Act, including

outreach. The final report should make these points.

                                                                                          . , - .. _- _   ' - -- .




Page 10 (Education Documentation                        of Eligible Legalized Alien
Status) -- The draft report says that schools will have to ask
students about their legal status in order to document the number
of eligible legalized aliens attending school. This is not true.
It is possible for school districts to ask whether students are
eligible legalized aliens , as defined by IRCA, without asking
whether their status is legal or            illegal.
eligible legalized aliens would include other aliens residing
                                                                  Those who are not
here legally and citizens, as well as undocumented aliens                           The
final report should make that point.


Page 11 (Education Administrative Costs) -- The draft report
notes that SLIAG start-up costs were covered in part by the
"state Refugee Program, " and that the state educational agency
does not plan to seek reimbursement from SLIAG for those costs.
The final report should note whether Federal refugee assistance
funds were used for this purpose and that, if so, this was an
improper use of those'       funds.
                               (Eligible legalized aliens, by
definition, are not refugees.


Findinas:
Finding: Since  1987, FSA has held national conferences and
issued information to states on implemen\ing the SLIAG program.

Comment: Since the OIG' s ons-ite visits. in August 1988, we have
continued to provide assistance to states. We have conducted
several more workshops and meetings to assist states in
implementation. In October 1988, we issued a compendium
incorporating the extensive formal guidance previously provided
to states on methods of cost documentation. We also have
provided assistance to individual states in the form of
correspondence, telephone consultation, and onsite technical
assistance. We have conducted initial program reviews of the
maj or States and are in the process of planning further
monitoring visits. We request that the final report reflect this
continuing dialogue with States.
Finding: Washington         took immediate steps to plan for and
implement SLIAG.

Comment: Under this finding, on page 4, the draft report says,
"The State has established a bilingual toll-free hotline for

aliens to learn about SLIAG. This has helped the State to

identify areas of concern that the alien population has about
SLIAG. II It    is not clear what kind of hotline this would be.
noted above, only those public assistance and public health

assistance activities that are generally available to the
population may be funded with SLIAG. (This requirement does not
apply to educational services.   Thus, SLIAG funding has no
direct relationship to the availability of public assistance and
public health assistance services to eligible legalized aliens.
Moreover, the cost outreach for public assistance or public
heal th assistance programs directed specifically to eligible
legalized aliens would not be allowable because it would not
meet the " generally available" requirement. A later reference to
the hotline, on page 5, states that most of the calls to the
hotline relate to the circumstances in which acceptance of public
assistance would lead INS to find that an individual was likely
to become. a " public charge, " thereby becoming ineligible for
permanent resident status. This reference would suggest that the
hotline activity provides a service specifically for eligible
legalized aliens. If so, costs associated with the hotline would
not be allowable under the public assistance or public health
assistance categories. Nor would the cost of an activity
relating to the delivery of services to an individual be
allowable as a SLIAG administrative costs. The final report
should further describe this activity, whether its cost is an
allowable use of SLIAG funds, and, if so, how it meets
regulatory and statutory criteria. Also, in light of these
questions, the OIG should consider whether to retain this

program on the list of " good practices" in the appendix.


Finding: The FSA' s definition of public assistance includes
some public health activities. This created ' administrative and
agencies.
service delivery problems for washington s public health


Comment: We question how the definitions of public. health and
public assistance create service delivery problems for state
public health agencies. By statute and regulation, all programs
or acti vi ties under both categories must be generally available.
In practice, this means that SLIAG funds are available only to
reimburse costs in ongoing, generally available programs.
most programs, immigration status is not a condition of
eligibility.    (The draft report notes that undocumented aliens
access public health assistance services. If the alien is
eligible for services, he or she would receive those services
regardless of whether they were reimbursed under SLIAG. The
final report should clarify this point. The final report also
should explain . that
                    the regulatory definitions of public
assistance and public health assistance are based directly on
section 204 of the Immigration Reform and Control Act of 1986
(IRCA), which created SLIAG.


Programs of public assistance are defined as programs that

 provide for cash, medical or other assistance.. desianed to
meet the basic subsistence or health needs of individuals
(section 204 (j) (2) (A) emphasis added). Consistent with IRCA'
explicit inclusion of medical assistance under the public

assistance category, State or locally funded programs that

provide medical treatment to needy individuals are considered by

FSA to be public assistance.

IRCA defines programs of public health assistance as programs
which " provide public health services, including immunizations
for immunizable diseases, testing and treatment for tuberculosis
and sexually-transmitted diseases, and family planning services"
(section 204(j)   (3) (A)).
                          These statutory definitions and the
legislative history indicate that Congress intended to allow
certain traditional public health functions under the public
heal th assistance category and medical assistance to the needy
under the public assistance    category. Inimplementing SLIAG, we
have followed that statutory framework. We have defined public
health assistance as, among other things, programs or activities
that " are provided for the primary purpose of protecting the
health of the general public" (45 CFR 402.     2).
                                                The scope of
programs included in that regulatory definition of public health
assistance goes far beyond the specific activities listed in the
IRCA .

The public assistance/public health assistance categorization
issue is primarily one of cost documentation requirements, not
the allowability of costs associated with any particular health
program. without the distinction between categories, Washington
would likely use the population ratio method to establish costs
for all programs   ru         by the their health departments. Implici t
in this method is the assumption that el gible legalized aliens
will access programs in the same frequency and at the same cost
as the general population. We do not believe this assumption to
be appropriate for medical assistance programs that provide
treatment to needy individuals, i. e., what the tatute defines as
a public assistance program. To the contrary, the information
that we have to date indicates that allowing use of the
population ratio method for these programs generally would
overstate costs, dramatically in some     cases.       However, we would
be willing to allow use of the population ratio method for any
program for which there is an          emDirical basis to indicate that

doing so would not overstate costs.

FSA realizes that many public assistance and public health
programs do not routinely collect information on immigration
status but has found many do collect social security numers.
That is why we funded and devoted substantial resources to
developing a system that will match the social security numers
of program participants with those of newly legalized aliens.
This system gives states information on the numer of newly
legalized aliens participating in a program and the cost of
services to them.  It is now available and allows states to
establish costs for FY 1988 as well as current and future years.
In May, we sent state SLIAG Single Points of Contact suggestions
for other possible methods for establishing costs. None of these
alternative methods requires setting up new administrative
mechanisms or checking status of all program participants.
We will continue to work closely with states to develop

methodologies to document costs for all programs in its approved

applications.
Finding: The FSA application review process created a number of
significant problems for Washington. Also, the FSA' s application
review process interfered with the State' s ability to plan for
services.
Comment: The draft report says that the time period for
submission, review, revision and approval of the initial
application was too short. We agree that it would have been
preferable - to have had a longer period of time between the
publication of the final regulation and the deadline for
submission and approval of FY 1988 and FY 1989 applications.
However, the final report should note that, because of the way
IRCA set up the allocation formula, one major reason for the
compressed timeframe was that we could not award funds to any
State until all States' applications had been approved. In order
for us to run the allocation formula, which . IRCA requires to
include estimates of costs, we must have approved estimates for
all States before we can calculate States' allocations.

The draft report says no formal appeals process exists if
programs or costs are denied. The SLIAG ':regulation provides
that the Grant Appeals Board has jurisdiction over issues
related to the witholding  and repayment of funds. For other
matters, States may follow normal procedures for disagreeing with
an agency finding.
The draft report says that Washington was notified n in September

1988 that its FY 1988 application could not be approved because

it required revisions, even though Washington had already

received an initial award letter.... This caused a further delay

in the release of SLIAG funds.    This statement is incorrect.
State received FY 1988 grant funds until its FY 1988 application
was approved. Applications under review during September 1988
were for FY 1989. The final report sh uld correct this error.

Recommendations:
Recommendation: The FSA should reconsider its position to

classify certain public health services as public assistance and

make appropriate adjustments to this position.


Response: As discussed above, the primary issue relating to the

definitions of public assistance and pUblic health assistance is

one of cost documentation. states would like to use the

population ratio method for all programs run by their health

departments. The final report should clarify whether the OIG is

recommending that we allow use of the population ratio in

programs where, as discussed above, its use would likely

overstate actual costs.
We believe that using the population method for all programs run
by state health departments would be inconsistent with our
responsibility to exercise fiscal responsibility in
administering SLIAG   funds.However, we recognize that some
states may encounter difficulties in establishing actual costs,
especially where ELAs are a small percentage of a State'
population or for programs that few ELAs access. We will
continue to work with states to ensure that a method is

available to allow them to establish actual costs for each
program in their approved applications, consistent with our
responsibilities as stewards of public funds.

Recommendation:    The FSA grant process should be made more
orderly.
Response: This recommendation  applies to the submission and
processing of SLIAG grants only and should not be confused with
the overall FSA grants management process. We have already made
a numer of significant changes in the SLIAG application and
grant award process. As the draft report indicates, the
timeframes for the FY 1988 and FY 1989 application processes were
necessarily short. In effect, the states and FSA had to complete
two application processes in less than a year. We do not expect
similar problems for the FY 1990 and FY 1991 application
processes.
To ensure that states have adequate time to prepare their FY

1990 applications based on empirical data, we have extended the
deadline from July 15 to October   1.Additionally, we have
encouraged states to submit as early as possible any new

programs, questions, or issues, and have advised them that they

may submit all or portions of their applications at any time. 

now provide in writing all our comments on states' submissions.

We issued extensive written guidance on the FY 1990 application

process and the standards we will apply in reviewing

applications.
The draft report also recommends that we develop an appeals

process to use if programs or costs associated with providing

services are denied in the initial application process. The
Department' s Grant Appeals Board already has jurisdiction over
cases involving the repayment or withholding of funds. Normal
channels within the Department are open to states that disagree

wi th decisions made during the course of application review.


Recommendation: The FSA and the INS should further clarify what

is meant by " public charge" and widely disseminate this

information to the aliens who have raised concerns about their

resident status.
Response: Under  IRCA and the Immigration and Nationality Act,
the INS alone is responsible for determining whether individuals

are likely to become public charges. FSA cannot establish policy



agencies.
on this issue. Nor can FSA disseminate information directly to

the alien population. INS is precluded by IRCA from providing

names and addresses of eligible legalized aliens to outside



However, we agree that it is important that all concerned know
INS policy on the public charge issue. We note that the INS
Phase II regulation clarifies thisissue.   Additionally, INS
representatives have made presentations at virtually all of our

workshops and conferences. At these meetings, States have been

able to ask questions and receive direct information from the

INS. We have communicated to States all information provided to

us by INS on this and other pertinent issues, and will continue

our policy of disseminating any relevant information that we

receive .
                                                  e.
The Department also has indicated its support for a legislative

change to allow States to use a small portion of their SLIAG

grants to inform temporary residents of the requirements for

adjustment to lawful permanent resident status and of the rights

and responsibilities of lawlul temporary residents. tSuch use is
not permitted under current law.
                  r.­




     APPENDIX C


WASHINGTON' S COMMENTS
                                                                 '.
                                                           ,()(.!.'       ..-  ' .;            ,.                 /"j

                                                                                                           .".... '"-.'




Richrd J. Ttsm

    "t.. " ':Jf\

                                                            I: .          . . .111 1 r 'l J ,



                            P\:   i \:1' '. I                                     \'.1)             I !!    \j !! I       ", 1"\ !(


                                                Iii " :. " J., L \ ,    ;;;1   1'''' '


                                                September 20, 1989



              Mr. Richard Kusserow
              Inspector General
              Office of the Inspector            General
              Washington, D. C. 20201
              Dear Mr. Kusserow:


              The attached document is the state of Washington' s review and
              comment of the inspection report "Implementation of the State
              Legalization Impact Assistance Grants under the Immigration Reform
              and Control Act of 1986 - State of Washington" . I have suggested
              a number of changes for clarification and accuracy.
              While the state agrees with the bulk of the findings reported, and
              appreciates the recommendations                              offered, the time lag of over
              year between the inspection and the publication of the draft report
              makes it of little real use. The majority of issues identified in
               the report have already                      been dealt                                with out of functional
               necessity.

                                                                   Sincerely yours,


                                                                   .4.,
                                                                      1"              1'/'
                                                                                         -1/

                                                          ,/ Ja es " Kai ber, Director
                                                                       Immigration Assistance Program
                                                                       OB 31-A
                                                                       olympia, WA 98501
               Enclosure
. "




                                           Washington state

                                Comment on OIG Draft Inspection Report





      OVERVIEW

      The stated purpose of the Office of the Inspector General t s (OIG)
      inspection of the implementation of the State Legalization Impact
      Assistance Grant   (SLIAG) was to: . (a) Determine the effectiveness
      of Washington t s implementation of SLIAG, (b) identify problems
      early in the process and (c) to identify " good practices" ' to be
      shared with other states.

      The text of the report does identify problems in the process and

      lists three analysis
                   " good practices" however, no qualitative or
                            is made regarding the effectiveness of
      quantitative
      Washington t s implementation of                the program.   We feel    that,
      considering the limitations placed on the state due to Federal
      delays and the lack of definitive policy and procedure at the time
      of the review
      efficiently to the entire SLIAG
                                      Washington state responded effectively and
                                                    process.
      In addition               to   the omission   of significant comment   regarding
      Washington t s effectiveness in implementation" there are                several
      areas of the report that are confusing or inaccurate. The following
      suggestions and comments are made on a page by page basis with the
      intent of helping the OIG to make the final document more useful
      to the state and Federal agencies invol ved.

      Executive Summary


      The findings and recommendations in the executive summary are not
      paired. It would be easier to understand the recommendation as it
      relates to a finding if the recommendation immediately followed the
      finding. Additionally, numbering the findings and recommendations
      would help in referring to them.

      The duplication of the detail in the findings and recommendations
      in both the text of the report and in the summary seems to be
      redundant. We suggest that the findings and recommendations be
      combined and generalized in the executive summary.

      The comment following the third finding on page ii (also          repeated
      on page
      vulnerabilities" is a 

                                of the report) "there are some funds control
                                          vague statement that seems to indicate
      that the state must have difficulty in the control of the way it
      utilizes or accounts for the use of funds. There are, however, no
      specific findings reported that address this alleged deficiency.
      We have no idea what vulnerabilities the report refers to and have
      no evidence               that   the states fiscal policies and accounting
      mechanisms have any lack of control or have vulnerabilities. This
      comment should be removed from the report and the preceding finding
      left as is.
                                           Washington state

                                Comment on OIG Draft Inspection Report





The fourth finding reported on page iii is not correct. Both the
Division of Public Health and the Office of the Superintendent of
Public Instruction verify ELA status of clients by making a copy
of the INS documentation for the client                   file.
The last sentence in the comment following the fourth finding on
page iii states that FSA and Washington need to take " additional
action in other areas" . Please be more specific as to what action
in what areas, refer to a specific recommendation or remove the
comment.
Introduction
In the fourth paragraph on page 1 you mention food stamps as being

among the programs for which Eligible Legalized Aliens (ELAs) are

ineligible. In fact ELAs who "Special Agricultural Workers " are

eligible for food stamps.


The second paragraph on page two is confusing 
                   nd mixes unrelated
statements about three subj ects in a single paragraph. Also, the
last sentence in this paragraph is inaccur te. States do have to
request  approval of
Administration costs.

                             methodology in       the       SLIAG determning
Washinaton I S Oraanizational Structure

The first                  paragraph on page three is inaccurate in       regard to
positions and organizational structure. Please consider the
following as a replacement:


"The Department of Social and Health Services (DSHS) is the agency

designated by the Governor to operate the SLIAG program in the

State of Washington. THe Division of Income Assistance within DSHS

houses the Immigration Assistance Program (IAP) which is directly

responsible for SLIAG activities. The director of the IAP is the

single point of contact for the SLIAG program. He is assisted by

a fiscal manager and program managers who are full-time staff.


Findinas and Recommendations


The comments under the third finding on page. 4 mention "funding
control vulnerabilities" . Reference is made to further comment
concerning these funding control vulnerabilities being contained
under the maj or topic areas. However, after careful study of those
findings and recommendations no detail or specifics can be found
that concern fiscal or funding control or areas of vulnerabil i ty.
This statement should be removed.
. '"




                                                       Washington state

                                            Comment on OIG Draft Inspection Report




          The first                 paragraph on page 6              references an "
          reality, contracted programs are monitored on anannual audit"
                                                           ongoing basis. by
                                                                          In
          IAP program managers. Mention 

                                       is also made
                                                       the third paragraph
         on page 6 of the Single Audit Act. Please consider
                                                    in
                                                             including the
         following statement as an accurate description of how the Single

         Audi t Act effects SLIAG:


               The independent           Statethe
                                                Auditor
                                                  Office of
         assigned audit staff which conducts      annu
 has a permanently
                                                       l audit required by

         the Single Audit Act. This staff audits all large federal programs

        wi th        a single year grant of seven million dollars or more.
         audit encompasses  all Department of                       This
        (DSHS) programs and is a sampling ofSocial and Health Service
                                               activity drawn from DSHS
        accounting/budgeting systems. Accordingly,
        sampling of SLIAG activities but not a it will be a potential
        financial/program activities.
             comprehensive look at

        The third paragraph on page 6 should be corrected to indicate that

        the costs of IAP staff will be charged to SLIAG for the full period

        of the grant , not just during the implementation phase.


        The last paragraph on page 6 mentions the financial manager. This

        should be the fiscal
                                                  anal vst
       The first                 three paragraphs on page 7
                                                                           have inaccuracies. Please
       consider using the following                          language:
       "Programs will claim SLIAG funds by two
                                                                methodsystem
       each program will input program charges through the computer     one methods. In
       using unique SLIAG account codes.
       the Immigration Assistance Program The
                                           willSLIAG financial
                                                 review        manager cost

                                                        the summarized  with

       data for each program and submit the 

                                             actual
       to a fiscal analyst in the central Office    monthly expenditures

                                                 of Accounting Services.

       The actual monthly expenditure data will be 

       year-to-date expenditure total and compared toincluded in a grant

                                                       SLIAG grant funds
       already drawn. The necessary revenue                                  draw is then adjusted
       prepared, and drawn from SLIAG
                                                              funds.
       The second billing method is by a monthly invoice for contracted
       services                rendered.
                           This method is used by outside agencies or
       contractors providing services to the 

                                             Department of Social and
       Health Services   for example
       Development and the Office of         Department of Community the
                                                                     the
       Instruction. The invoices are       Superintendent of Public
       staff and approved for paymentreviewed by Immigration Program

                                                                           in
       contractual agreement.

                                        if     accordance wi                                th the
       According to respondents, cash advances are generally not allowed

       in public assistance programs. However

                                              , the Bureau of Alcohol and



                                                              C..

                                                         ,,


I '



                                Washington state

                     Comment on OIG Draft Inspection Report





       Substance Abuse and the Department of community Development (DCD)
       will permit advances for start-up  costs.  Programs receiving cash
       advances will have to submit a plan specifying start-up activities
       and their costs. Expenditures will be verified by DCD/BASA staff
       and reviewed by Immigration Program staff before payment is made.
       Immigration Program staff and other program/contractor staff will
       conduct field monitoring visits of these activities during the
       contracted period of performance. Some of these activities will
       be sampled and audited during the annual Single State Audit.
       The next to last paragraph on page 9 refers to annual contractor
       audit. This should be replaced with " ongoing contract monitoring
       and review"

       Documentation of Status

       The second paragraph on page 8 is incorrect. Public Health programs

       may serve individuals who have only applied for amnesty as well as

       those who have achieved temporary or permanent resident status.

       Education
       The second paragraph on page 10 indicates that 11 of 293 school
       districts are  eligible for SLIAG funding. The actuat number of
       eligible districts has not yet been determined.

       The third paragraph on page 10 mentions that SLIAG services will
       be provided by correctional facilities. This is in error as no
       correctional facilities are contracted to provide SLIAG services.

       The fourth paragraph on page 10 states that " no new services have
       been added" . This is in error. English language training and Civics
       training for ELAs is a new service and is      allowable under the
       provisions of SLIAG.

       The third paragraph on page 11 is confusing in regard to the 8%
       administrative cost of a contractor' s total funding. Instead you
       should refer to the 8% of total instructional costs.
       Crosscuttina Issues


       This heading, found on page 12, has no explanation about how and
       where these issues " crosscut" Many of the findings are duplicative
       of those reported elsewhere in the report.

       The last finding on page 13 indicates that some programs have not
       yet implemented methods to identify ELAs and, in the following
       comment, states the reason for the delay is that Federal funds to
       pay for . the development of those methods and procedures had not
. ':




                               Washington state

                     Comment on OIG Draft Inspection Report





       yet been received. However, the recommendation associated with that
       finding (page 14)   states that the programs should go ahead and
       deve.lop the procedures and makes no mention of the delay in Federal
       funding. We feel the recommendation should be that FSA immediately
       fund the state so that development may begin.
       The fifth paragraph on page 14 is incorrect as it refers to Public
       Health program eligibility. SAWs are not treated differently from
       other applicants. All that is needed to be eligible for Public
       Health services is that an individual be an applicant under IRCA.
       The sixth paragraph on page 14 is also incorrect. Contrary to what
       is stated, the Office of the Superintendent of Public Instruction
       request for participation specifies that to be eligible a student
       must be an ELA, ie. must have been ad,justed to      the status of
       temporary resident alien.
